IN THE SUPREME COURT OF THE UNITED STATES

No.
Lon ni e Lee Owen s ,

Applicant,
v.
Mike Parri

s , ward

en

Respondent.
CERTIFICATE OF SERVICE

I, Megan M. Wold, a member of the Supreme Court Bar, hereby certify that
three copies of the attached Application to the Honorable Sonia Sotomayor for an
Extension of Time to File a Petition for Writ of Certiorari to the United States Court
of Appeals for the Sixth Circuit were served on:
Richard Davidson Douglas
Assistant Attorney General
John H. Bledsoe
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202

Counsel for Respondent
Service was made by first-class mail on October 14, 2019.

60 rtf
Megan M. Wold

Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
megan.wold@kirkland.com

